CERTIFICATE OF COMPLIANCE
No.
JOE BLESSETT
Petitioner
v.

TEXAS OFFICE OF THE ATTORNEY GENERAL GALVESTON
COUNTY CHILD SUPPORT ENFORCEMENT DIVISION
Respondent

As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari contains 8657 words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d). In light of the
ongoing COVID-19 pandemic April 15, 2020, the Court order.
I declare under penalty of perjury under the laws of the United States
of America 28 U.S.C. 1746(1) that the foregoing is true and correct.
Executed on

C: . 3

3

, 2020

Joe^Blessett Pro Se
3i{l8\fM 528 #346
Webster, TX 77598
Ph. 281-667-1174

RECEIVED
AUG 1 3 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

